No. 20-828
IN THE

Supreme Court of the United States
FEDERAL BUREAU OF INVESTIGATION, ET AL.,

Petitioners,
v.
YASSIR FAZAGA, ET AL.,

Respondents.
CERTIFICATE OF SERVICE
I hereby certify that I am a member in good standing of the bar of this Court and
that on this 28th day of September, 2021, I caused three copies of the Brief for
Constitutional Law Professors as Amici Curiae in Support of Respondents to be served
by third-party commercial carrier on the counsel identified below, and caused an
electronic version to be transmitted to the counsel identified below, pursuant to Rule
29.5 of the Rules of this Court. All parties required to be served have been served.
Brian H. Fletcher

Acting Solicitor General

U.S. DEPARTMENT OF JUSTICE
950 Pennsylvania Avenue, N.W.
Room 5616
Washington, D.C. 20530
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Counsel for Petitioners

Ahilan T. Arulanantham
UCLA SCHOOL OF LAW
385 Charles Young Drive East
Los Angeles, CA 90095
(310) 825-1029
arulanantham@law.ucla.edu

Counsel for Respondents Yassir
Fazaga, et al.

Catherine Mary Agnes Carroll
WILMER CUTLER PICKERING HALE AND
DORR LLP
1875 Pennsylvania Avenue, N.W.
Washington, D.C. 20006
(202) 663-6000
catherine.carroll@wilmerhale.com

Counsel for Respondents J. Stephen
Tidwell, et al. in Support of Petitioners
Alexander Howard Cote
WINSTON & STRAWN LLP
333 South Grand Avenue
38th Floor
Los Angeles, CA 90071
(213) 615-1993
acote@winston.com

Counsel for Respondents Paul Allen, et
al. in Support of Reversal

/s/ Akiva Shapiro
Akiva Shapiro

2

